  Office of Inspector General
          Audit Report


PHMSA’S STATE PIPELINE SAFETY PROGRAM
  LACKS EFFECTIVE MANAGEMENT AND
              OVERSIGHT
Pipeline and Hazardous Materials Safety Administration

             Report Number: AV-2014-041
               Date Issued: May 7, 2014
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: PHMSA’s State Pipeline Safety                                        Date:    May 7, 2014
           Program Lacks Effective Management and
           Oversight
           Pipeline and Hazardous Materials Safety
           Administration
           Report No. AV-2014-041

  From:    Jeffrey B. Guzzetti                                                       Reply to
                                                                                     Attn. of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Pipeline and Hazardous Materials Safety Administrator

           The Nation’s network of approximately 2.5 million miles of pipelines moves
           millions of gallons of hazardous liquids and 55 billion cubic feet of natural gas
           every day. Eighty-five percent of these pipelines are under State authority. The
           Department of Transportation’s (DOT) Pipeline and Hazardous Materials Safety
           Administration (PHMSA) authorizes States to oversee and enforce operators’
           compliance with Federal pipeline safety regulations through its State Pipeline
           Safety Program. 1 PHMSA also allocates grants to State programs. Between 2008
           and 2013, funding for these grants more than doubled from $19.5 million to over
           $46 million.

           In September 2010, an intra-State natural gas pipeline exploded in San Bruno, CA,
           resulting in 8 fatalities, 58 injuries, and 38 destroyed homes. The National
           Transportation Safety Board’s (NTSB) investigation 2 found weaknesses in
           PHMSA’s oversight of State programs. Because of these weaknesses, NTSB
           recommended that DOT assess the effectiveness of PHMSA’s oversight of
           intra-State pipeline safety and whether State programs use Federal grants
           effectively. In a January 2012 letter to NTSB, the Secretary stated that our office
           would conduct the audit.



           1
            The program is comprised of PHMSA’s Natural Gas Program and PHMSA’s Hazardous Liquid Program.
           2
            NTSB, “Pacific Gas and Electric Company Natural Gas Transmission Pipeline Rupture and Fire San Bruno,
           California, September 9, 2010,” NTSB/PAR-11/01 PB2011-916501.
                                                                                                                2


Accordingly, we assessed PHMSA’s (1) policies and procedures for managing its
State Pipeline Safety Program, including guidelines to participating States, and
(2) oversight of State pipeline safety programs. We conducted this audit in
accordance with generally accepted Government auditing standards. Our review is
limited to States certified under PHMSA’s Natural Gas Program. Exhibit A
provides details on our scope and methodology. Exhibit B lists organizations we
visited or contacted.

RESULTS IN BRIEF
PHMSA’s guidelines, 3 policies, and procedures for State pipeline safety
programs—such as inspector staffing, training, scheduling, and inspection
forms—lack elements to ensure State inspections cover all Federal requirements
and pipeline operators maintain safety standards. For example, PHMSA’s
guidelines include an outdated staffing formula that does not account for the
effects of new inspection types on State inspector needs and lack minimum
qualifications for State inspectors to lead standard pipeline operator inspections.
The guidelines also do not sufficiently detail how States should use risk factors for
scheduling inspections or specify appropriate time intervals between inspections to
ensure States’ inspections detect and mitigate safety risks in a timely manner.
Similarly, PHMSA’s policies and procedures for conducting State inspections do
not require its evaluators to review the adequacy of States’ inspection procedures,
and the Agency does not have procedures to inform States of updated inspection
forms. As a result, States may not properly execute and cover all inspection
requirements. Finally, while PHMSA’s triennial financial reviews of State
program expenditures are effective, the Agency lacks formal written procedures to
guide the conduct of these reviews. This lack of procedures could undermine the
reliability of future reviews.

PHMSA’s oversight of State pipeline safety programs is not sufficient to ensure
States comply with program evaluation requirements and properly use suspension
grant funds. 4 Lapses in oversight have resulted in undisclosed safety weaknesses
in State programs. Our review of 400 program evaluation requirements 5 for
5 randomly selected States 6 detected 135 non-compliances with program
requirements, while PHMSA identified 12. For example, States (1) could not
provide evidence that all inspections were conducted within required timeframes;
(2) did not have inspection procedures for all types of inspection activities; and
(3) lacked trend analyses of operators’ annual reports. Because it has not
3
  Guidelines for States Participating in the Pipeline Safety Program (rev. 2011).
4
  PHMSA awards suspension grant funds to fiscally challenged States to help them maintain or expand their pipeline
safety programs.
5
  We reviewed 80 program evaluation requirements for each of the 5 States for a total of 400 requirements.
6
  Our review is limited to States pipeline safety programs implemented in calendar year 2010 and 2011. Our sample
was selected from 48 certified States.
                                                                                                                 3


accounted for these non-compliances, the Agency cannot be sure that States
correct program deficiencies. PHMSA officials acknowledged that staff are not
familiar with program evaluation requirements and lack training on reviewing
States’ adherence to requirements. Furthermore, PHMSA has not provided
sufficient guidance to States and has not completed financial audits of States’ use
of suspension funds. This lack of suspension fund audits makes it difficult for
PHMSA to be sure that States have appropriately used and accounted for the
funds.

We are making recommendations to improve PHMSA’s oversight of State
pipeline safety programs and grants.

BACKGROUND
Through its authority under the Natural Gas Pipeline Safety Act of 1968, 7 PHMSA
gives State agencies inspection and enforcement responsibilities over pipeline gas
facilities. States must self-certify that they are qualified to oversee intra-State
pipeline operators and enforce Federal pipeline safety regulations. Forty-eight
States (51 State agencies) are certified to participate in the State Pipeline Safety
Program. 8

PHMSA provides grant funds to States to assume these pipeline safety
responsibilities. Grant fund awards are based on States’ performance scores, which
PHMSA generates by assessing each State’s oversight of its pipeline safety
program. PHMSA can reimburse each State agency up to 80 percent of the actual
costs of implementing a program, which may include personnel, operations, and
equipment. To determine the performance score and grant reimbursement for each
State, PHMSA uses the following method. 9

• The State’s Annual Self-Certification (maximum of 50 points). One-half of
  the total performance score is based on information a State submits in its
  annual self-certification documents. These documents explain how the State
  met certification requirements during the past year and how it plans to meet
  requirements in the upcoming year. Certification requirements include
  adopting Federal regulations and confirming that State inspectors are trained
  and qualified.

• PHMSA’s Annual Evaluation of the State’s Program (maximum of
  50 points). The other half of a State’s performance score is based on

7
  P. L. 90-481 (1968)
8
  This is limited to PHMSA’s Natural Gas Program. Every State is certified to participate in this program, except
Hawaii and Alaska. Also, there are more State agencies than States because Puerto Rico and District of Columbia are
certified State agencies, and Arkansas includes two certified State agencies.
9
  49 Code of Federal Regulations 198.13
                                                                                                             4


     PHMSA’s annual on-site evaluation of the State’s program policies, plans,
     procedures, and records, and the State’s field inspections of pipeline operators.
     During this evaluation, PHMSA also verifies the information that the State
     submitted in its self-certification. 10

• Grant Allocation. To calculate each State’s grant allocation, PHMSA applies
  the scoring from the State’s annual certification and program evaluation using
  the following formula:

         80 percent of State’s Total Program Costs x State’s Performance Score =
                                      Grant Allocation

Currently, PHMSA has six evaluators to review and score annual certifications
and program evaluations, and oversee State agencies that participate in its State
Pipeline Safety Program. Five of these evaluators also perform in-depth triennial
grant reviews at State agencies.

Since 2009, PHMSA has awarded additional funds, known as suspension funds, to
States that have experienced financial hardships during the recent recession.
Suspension funds were available only to those States that could not provide
matching funds, as stipulated in the maintenance-of-effort (MOE) clause of the
Pipeline Inspection, Protection, Enforcement, and Safety Act of 2006. 11 Because
many States were operating under hiring freezes and other financial restrictions
that made the requirements of the MOE clause unattainable, the Department
“suspended” the matching funds requirement for fiscal years 2009, 2010, and
2011. PHMSA provided the funds to sustain pipeline safety efforts and help State
programs grow, and States must account for the funds separately from other grant
funds and use them for specific purposes. In 2011, suspension funds accounted for
approximately $6 million of the $35 million that PHMSA awarded to States.

PHMSA’S GUIDELINES, POLICIES, AND PROCEDURES LACK
STEPS FOR EFFECTIVE MANAGEMENT
PHMSA’s guidelines, policies, and procedures for State programs lack steps to
effectively manage the State Pipeline Safety Program and identify safety
weaknesses in State programs. Specifically, PHMSA uses an outdated formula to
determine how many inspectors each State needs to conduct inspections. PHMSA
also lacks qualification requirements for State inspectors to lead standard
inspections and does not detail in its guidelines how States should use
recommended risk factors for scheduling inspections. The Agency also lacks
written procedures for its triennial reviews.

10
   For both a State’s annual self-certification and PHMSA’s annual evaluation of a State’s program, PHMSA may
deduct points for non-compliances with program requirements.
11
   P.L. 109-468 (2006), known as the “PIPES” Act. The MOE clause requires States to provide matching funds that
equal at least the previous 3-years’ average program costs.
                                                                                                                   5


PHMSA’s Formula for Calculating Required Inspector Staffing Levels
Is Outdated
PHMSA’s staffing formula, used to calculate the minimum level of staff that
States need to conduct pipeline inspections, predates certain inspection types and
does not consider risks such as pipe age and composition. This formula, developed
in the 1990s, includes three components common to all State pipeline programs to
determine the number of needed inspectors: miles of pipeline, number of gas
service lines, and inspection units. 12 However, the formula does not account for
the more recent non-standard inspections 13—integrity management, operator
qualification, and operator training programs—or address factors that impact
pipeline risk, such as age and material composition, and the size of inspection
units. For example:

• Texas reported that despite meeting its formula-derived staffing levels for 2010
  and 2011, it lacked sufficient inspector resources to accomplish its integrity
  management inspections of gas transmission pipeline operators. This problem
  will become more acute because a PHMSA regulation that went into effect in
  2010 14 requires States to inspect gas distribution integrity management
  programs as well as gas transmission.

• More than 20 percent of the Nation’s total gas distribution pipelines are over
  50 years old or composed of materials such as cast iron or bare steel. These
  pipelines are at a higher risk for failure than newer pipelines made of more
  resilient materials. However, PHMSA’s staffing formula does not factor in the
  additional resources needed to inspect these pipelines’ risks.

Because the formula does not factor in States’ needs for non-standard inspections,
States may not be staffed appropriately to meet inspection needs associated with
new inspection types, such as those that assess integrity management programs, 15
and risky pipelines.




12
   An inspection unit consists of all or part of an operator’s pipeline facilities that are under the control of an
administrative unit responsible for design, construction, and operation and maintenance, such as 500 miles of pipeline
or a municipality-owned utility that distributes natural gas.
13
   Non-standard inspections focus on operators’ programs. Inspectors review the operator’s plans, processes, and
procedures for quality and completeness. They also perform field inspections to ensure that operators do what their
plans say and to determine whether or not their plans are effective.
14
   The Gas Distribution Integrity Management Final Rule, effective February 2010, requires gas distribution operators
to establish integrity management programs for their gas distribution pipelines, and requires State programs to review
the adequacy of these plans and their implementation.
15
   An integrity management program includes plans, processes, and procedures aimed at reducing the likelihood and
severity of accidents.
                                                                                                                6


As part of a 2010 study, PHMSA and the National Association of Pipeline Safety
Representatives reviewed the staffing formula to determine whether it needed
enhancements. A staffing formula task group recommended quantifying certain
risk factors to determine what additional staffing States needed to conduct
integrity management and other new inspections and oversee leak- and failure-
prone pipe. The study also revealed that States inconsistently designated
inspection units—a factor in the staffing formula. A PHMSA official confirmed
that States could under- or overstate their staffing needs depending on how they
reported their inspection units. For example, Texas program officials illustrated
how a reduction in its inspection units from 1,897 to 1,423 would decrease its
staffing need from 30 to 22 inspectors.

A PHMSA official stated that the Agency has not changed the staffing formula in
part because the study found an insufficient correlation between low staffing
levels and reduced pipeline safety. 16 Because it has not incorporated risk factors
into the formula and does not consider how States define an inspection unit,
PHMSA cannot be sure that States’ are accurately estimating their staffing needs.

PHMSA Has Not Established Minimum Qualifications for State
Inspectors to Lead Standard Inspections
Although PHMSA stipulates several training requirements for State inspectors, the
Agency’s guidelines do not establish minimum standards for the qualifications of
State inspectors to lead standard pipeline operator inspections. According to
PHMSA officials, the Agency requires State inspectors to meet the same training
and qualification requirements as Federal inspectors. Specifically, State inspectors
have 5 years to successfully complete 6 classes in order to become fully trained in
standard inspections. PHMSA requires additional training for State inspectors to
lead certain non-standard inspections, including operator qualification and
integrity management inspections.

Work experience combined with PHMSA training is expected to provide
inspectors with the capabilities they need to conduct standard inspections. Leaders
of standard pipeline safety inspections are responsible for ensuring that the
inspections are conducted according to Federal requirements and that pipeline
operators are maintaining safety. 17 However, PHMSA has not set minimum
qualifications for State inspectors to lead standard pipeline safety inspections.
Instead, the guidelines allow State program managers to decide when an inspector
can lead standard inspections. For example, in one State, an individual who had
been an inspector for less than a year was allowed to lead standard inspections
despite taking none of the six required courses. Because it has not set minimum

16
   Only two state pipeline programs could be considered as needing significant improvement, but PHMSA was unclear
if staffing was an issue.
17
   Leaders of standard pipeline safety inspections may lead a group of inspectors or conduct inspections alone.
                                                                                   7


qualifications for State inspectors to lead standard inspections, PHMSA cannot be
sure that State inspections cover all Federal requirements and ensure pipeline
operators maintain safety.

PHMSA’s Guidelines Do Not Detail How States Should Use Risk
Factors for Scheduling Inspections
To ensure States identify high-risk pipeline operators and prioritize inspections
accordingly, PHMSA requires States to consider 14 risk factors when scheduling
inspections (see Figure 1). However, PHMSA’s guidelines do not weigh or
include thresholds for the risk factors. For example, the guidelines do not state
which risk factors are more critical than others or indicate how many instances of
non-compliance make an operator a high risk.

Figure 1. Risk Factors for Scheduling Pipeline Inspections
 •   Length of time since last inspection   •   Population density
 •   Leakage                                •   Excavation damage

 •   Incident                               •   Corrosion

 •   Compliance activities                  •   Natural forces
 •   Construction                           •   Outside forces
 •   High consequence areas                 •   Material and welds

 •   Geographic area                        •   Equipment



Source: PHMSA’s Annual Program Evaluation

The 5 States we reviewed did not use most of the 14 risk factors to schedule 2010
and 2011 inspections. Four States used only 1 risk factor—time intervals between
inspections—while another State used 5 factors, including population density and
pipeline material. This non-risk based approach to scheduling inspections makes it
difficult for PHMSA to ensure that States properly oversee problematic operators.

Furthermore, one State allowed lengthy intervals between pipeline safety
inspections. PHMSA requires States to inspect all types of operators and
inspection units in accordance with the time intervals they have established in their
procedures, but the Agency’s guidelines do not specify minimum timeframes for
the frequency of the inspections. PHMSA noted that many States go beyond their
risk-based requirement because they conduct inspections of all operators every
year. However, we found that one State allowed as long as 8 years between
inspections. Because of these oversight gaps, PHMSA cannot be sure that States
detect and mitigate safety risks.
                                                                                                           8


PHMSA’s Policy and Guidelines for Conducting Inspections Are
Incomplete
While PHMSA requires State programs to establish procedures for all types of
inspections, the Agency does not require its evaluators to review the adequacy of
these procedures. As a result, PHMSA cannot be sure States properly execute all
required inspections. One State’s guidance provided brief definitions of inspection
types, but not the steps required to conduct inspections.

Furthermore, PHMSA does not have procedures to inform States of updates to its
pipeline safety inspection requirements. PHMSA requires State inspection forms
to cover all applicable code requirements addressed in Federal inspection forms.
States use the forms from PHMSA’s Web site to meet this requirement. PHMSA
updates its Federal inspection forms throughout the year to incorporate new
inspection requirements, but it does not alert State programs of the changes to the
forms or archive the revisions. Four States used outdated Federal inspection forms
at various times. Because PHMSA does not immediately inform State program
officials of changes to its forms, States may not cover all applicable Federal
inspection requirements.

PHMSA’s Triennial Reviews Are Effective, but Lack Written
Procedures
Every 3 years, PHMSA reviews States’ pipeline safety program grant
expenditures, including an examination of supporting documentation for the prior
years. 18 These triennial financial reviews have generally been thorough and found
State reimbursement requests that included unallowable costs. For example, one
reviewer identified ineligible personnel, training, and education costs that a State
submitted in 2010 and 2011. This resulted in a deduction of $119,434 from
PHMSA’s next grant reimbursement to the State. However, a lack of written
procedures for conducting these reviews increases the risk of errors and
inconsistencies, especially when new evaluators begin conducting grant reviews.
Moreover, the lack of written procedures could impact PHMSA’s goal of having
all States use similar processes for calculating and allocating costs to streamline
review processes and ensure equity across States.

PHMSA’S OVERSIGHT IS INSUFFICIENT TO ACCURATELY
ASSESS STATES’ SAFETY PROGRAMS AND USE OF FUNDS
PHMSA’s assessments of State pipeline safety programs are not accurate. The
Agency did not detect that: States did not track the timeliness of their inspections;
some States did not have the required procedures for all types of inspections; and

18
  Evaluators review supporting documentation for States’ grant expenditures—such as salary data and equipment
purchases—and deduct unsupported costs.
                                                                                                          9


that States lacked trend analyses of operators’ annual reports, which can detect
information about incidents such as pipeline leaks and excavation damage. The
Agency also lacks sufficient guidance on the use of suspension funds. Moreover, it
has not audited States’ use of these funds.

PHMSA’s Assessments of States’ Compliance With Program
Evaluation Requirements Are Not Accurate
Through its annual program evaluations, PHMSA assesses States’ compliance
with performance factors, scores their safety programs accordingly, and notifies
States of non-compliance and needed corrective actions. However, our review of
400 program evaluation requirements for 5 randomly selected States’ 2010 and
2011 pipeline safety programs showed that PHMSA evaluators did not identify a
large    number      of    non-compliances.      Specifically, we     identified
135 non-compliances with program requirements, while PHMSA identified 12.
These non-compliances include three critical categories.

First, States did not track whether they performed all inspections within required
timeframes. PHMSA is required to verify whether States assess all operators and
inspection units in accordance with the timeframes established in the States’
procedures. None of the five States could provide evidence that they had inspected
all operators according to their time intervals, and PHMSA did not identify these
non-compliances. The five States provided selected individual inspections to
PHMSA during their program evaluations, but could not provide evidence for their
entire programs. Consequently, PHMSA cannot be sure that these States are
conducting all safety inspections frequently enough to detect and mitigate safety
risks.

Second, three of the five States did not comply with PHMSA requirements to have
inspection procedures for all types of inspections, 19 but PHMSA identified only
one of the three non-compliant States. Specifically, PHMSA noted that the State
did not have any inspection procedures for on-site operator training in 2011. We
found, however, that the State did not include procedures for integrity
management inspections or on-site operator training inspections in 2010 and 2011.

Finally, States did not conduct trend analyses of operators’ annual reports, which
provide critical historical information, such as pipeline leaks and excavation
damage. PHMSA requires States to analyze operators’ annual reports to pinpoint
high-risk areas. All five States said they did not conduct these trend analyses in
2010 and 2011, but PHMSA did not identify any instances of non-compliance
with this requirement in its program evaluation.


19
   We reviewed seven types of inspections: standard, integrity management, operators’ qualifications, damage
prevention, on-site operator training, construction, and incident/accident.
                                                                                              10


According to PHMSA officials, the Agency’s evaluators—who have at least 18
years of pipeline experience—have the overall technical expertise and training to
perform and evaluate pipeline inspections. However, they lack training on how to
review overall State programs in accordance with PHMSA’s specific program
evaluation requirements and procedures. For example, PHMSA requires courses
on pipeline corrosion control but does not provide training for evaluating and
verifying States’ application of assessment criteria, such as timeframes and trend
analyses. The lack of this training makes it difficult for PHMSA to be sure that its
personnel are capable of evaluating compliance with all program requirements and
consequently to ensure that safety risks are mitigated as much as possible.

PHMSA Has Not Provided Sufficient Guidance on or Audited States’
Use of Suspension Funds
PHMSA provides States general guidance on suspension funds—including how to
apply and account for these funds—but the guidance is incomplete and, in part,
difficult to follow. For example, one of the four States 20 did not comply with
PHMSA’s requirements to account for the funds separately from other grant funds
and provide supporting expense documentation. Another State was unsure how it
should apply suspension funds in its next year’s program cycle because States
cannot include them in subsequent years’ budgets, which are the basis for grant
requests.

A PHMSA official stated that the Agency will begin suspension fund audits in
2014, but it has yet to develop an audit plan or determine the impact these audits
will have on its evaluation resources. Furthermore, while it has requested that
States submit their 2009 suspension fund data so it can recover any unspent funds,
PHMSA will not audit the supporting documentation until it conducts the next
triennial review of each State, which could be as much as 3 years later. As a result,
PHMSA cannot determine whether the funds are being used appropriately or
achieving the purpose of helping States maintain and grow their programs, or
identify the type of guidance States need to better prepare for upcoming audits.

CONCLUSION
PHMSA’s State Pipeline Safety Program plays a significant role in maintaining a
safe and reliable intra-State gas pipeline system. While PHMSA has several efforts
under way to meet this mission, it is critical that PHMSA strengthen its
management and oversight of States’ pipeline safety programs. To effectively
execute the program, PHMSA must take actions to further refine its policies and
procedures for managing the program, including its guidelines to the States and
improve its oversight to ensure States fulfill their role in pipeline safety. Until such

20
     Florida was not included because it does not accept State pipeline safety grant funds.
                                                                                 11


actions are taken, the Agency cannot be sure that all safety weaknesses are
identified and mitigated.

RECOMMENDATIONS
We recommend that PHMSA:

1. Revise the staffing formula so that it accounts for risk and non-standard
   inspections, and periodically analyze State-provided inspection unit data to
   validate staffing formula results.

2. Develop and include in PHMSA’s State Program Guidelines:

   a. Minimum training requirements for State inspectors’ qualification to lead
      standard inspections (i.e. classroom and/or on-the-job training).
   b. A system that tracks revisions to Federal inspection forms and actively
      notifies States when these new forms are available.
   c. Standards for time allowed between inspections for all inspection types.

3. Develop and implement procedures to review the adequacy of inspection
   procedures as part of the annual program evaluation.

4. Provide States with comprehensive guidance to ensure States effectively
   implement PHMSA’s risk analysis methods for scheduling inspections.

5. Document the procedures for conducting triennial grant reviews to ensure
   consistency of oversight.

6. Develop a training program that ensures PHMSA evaluators can successfully
   conduct the following program evaluation procedures:

   a. Determine and verify whether States have complied with all Program
      evaluation requirements according to its procedures.

   b. Accurately notify States in writing of non-compliance with Program
      evaluation requirements to ensure States take correct action to achieve
      compliance.

7. Develop and implement a plan for auditing States’ use of suspension funds,
   and work with State program managers to identify current suspension fund
   administration challenges requiring additional guidance.
                                                                                  12


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to PHMSA on February 20, 2014, and received
its response on April 24, 2014, which is included in its entirety as an appendix to
this report. In its response, PHMSA concurred with recommendations 2, 5, and 7;
and partially concurred with recommendations 1, 3, 4, and 6. As detailed below,
we are requesting that PHMSA reconsider its response to recommendation 1, and
provide additional information on its planned actions for recommendation 3. For
recommendations 2, 4, 5, 6, and 7, PHMSA’s actions taken and planned meet the
intent of our recommendations. However, we are requesting PHMSA provide
additional documentation to verify that these actions fully address our
recommendations.

For recommendation 1, PHMSA asserts that it has taken action independent of our
recommendation that addresses our concerns regarding the staffing formula.
PHMSA referenced a 2010 study in which a joint team of State pipeline safety
program representatives and PHMSA participants evaluated the merits of the
existing staffing formula and made recommendations for improvements. We
acknowledged PHMSA’s efforts to improve the staffing formula in our report, but
believe that those actions do not go far enough. To resolve our recommendation,
PHSMA officials stated that they wil1 review the considerations from the 2010
study. However, these planned actions do not adequately address our
recommendation that the Agency revise the formula to account for non-standard
inspections—integrity management, operator qualification, and operator training
programs—and address factors that impact pipeline risk such as age and material
composition, and the size of inspection units. Accordingly, we request that the
Agency reconsider its position on this recommendation. We consider this
recommendation open and unresolved.

For recommendation 2, PHMSA states that it will review and update its guidance
to help State program managers determine the proper training level inspectors
should have before they perform unassisted inspections. The Agency also stated
that its current inspection forms are already posted on its Web site (and that States
have been notified as such), that it established a 5-year maximum interval between
standard inspections in its recent State guidance, and that maximum time intervals
will be established for other inspections. However, we are requesting that PHSMA
provide additional information regarding those actions. Specifically, we request
that PHSMA provide (1) additional information on whether its update to the States
guidance will include minimum training requirements for State inspectors’
qualification to lead standard inspections, (2) a copy of PHMSA’s February 2014
email sent to the States alerting them to the location of the most recent inspection
forms, (3) evidence of the Agency’s intention to alert States of future changes to
                                                                                  13


the forms, and (4) a copy of the revised State guidance establishing maximum time
intervals for all inspections. We consider recommendation 2 resolved but open
pending receipt of this information.

For recommendation 3, PHMSA states that it plans to enhance its existing
inspection guidance to States to address our recommendation. However, PHMSA
did not provide the specific enhancements it plans to make to the guidance to
ensure States’ inspection procedures are adequate, or how it will oversee States’
implementation of this guidance. Additionally, PHMSA’s response does not
address actions to develop and implement procedures for its evaluators’ use in
determining the adequacy of inspection procedures during annual program
evaluations. Accordingly, we request that the Agency clarify how its planned
actions will meet the intent of this recommendation. We consider recommendation
3 unresolved pending receipt of this information.

For recommendation 4, PHMSA states that it will review and revise the current
risk elements for States’ inspection scheduling, and will provide guidance to States
on the methodologies to be used in line with PHMSA’s methodologies for
inspection unit risk ranking. The Agency also stated that it has developed Web-
based training regarding risk assessment methods. However, we are requesting
that PHSMA provide us with copies of the revisions to its States’ guidance
addressing effective implementation of PHMSA’s risk analysis methods for
scheduling inspections, and a copy of the Web-based training. We consider
recommendation 4 resolved but open pending receipt of this information.

For recommendation 5, PHMSA requested that we close this recommendation
because it has taken actions to address it. While these actions appear to address the
intent of our recommendation, we are requesting that PHSMA provide us with the
procedures it has developed for conducting triennial reviews. We consider
recommendation 5 resolved but open pending receipt of this information.

For recommendation 6, PHMSA again requested that we close this
recommendation because it has taken actions to address it. However, we are
requesting that PHSMA provide us with a copy of its 2013 training manual for
PHMSA evaluators, evidence of the Agency’s intention to provide this training
annually to all evaluators, and a copy of its forthcoming policy for the 2013 grant
cycle that addresses State funding and program evaluation scores. We consider
recommendation 6 resolved but open pending receipt of this information.

For recommendation 7, PHMSA states that it has developed a plan for auditing
States’ use of suspension funds and will meet with State program managers to
identify administrative challenges and develop guidance on suspension funds.
However, we are requesting that PHSMA provide us with a copy of its plan and
intended actions for developing guidance for State program managers to validate
                                                                              14


the actions it has taken. We consider recommendation 7 resolved but open pending
receipt of this information.

Despite its general concurrence with our recommendations, PHMSA took issue
with one of our findings, asserting that it requested but was never provided with
information regarding the purported 135 missed non-compliances. However, our
report includes 3 examples that describe the non-compliances. Further, we
discussed the types of non-compliances we found with PHMSA officials on
multiple occasions prior to issuing our draft audit report. Nevertheless, we are
ready to again review our results with PHMSA so the Agency can take steps
necessary to improve training on reviewing State grant programs.

ACTIONS REQUIRED
We consider recommendations 2, 4, 5, 6, and 7 resolved but open pending receipt
of the information requested above. We consider recommendations 1 and 3 open
and unresolved and request that PHMSA reconsider its position for
recommendation 1 and clarify how its planned actions will meet the intent of
recommendation 3.

In accordance with Department of Transportation Order 8000.1C, we request that
PHMSA provide us this additional information within 30 days. We appreciate the
courtesies and cooperation of PHMSA representatives during this audit. If you
have any questions concerning this report, please call me at (202) 366-0500, or
Scott Macey, Program Director, at (415) 744-3090.

                                       #

cc: DOT Audit Liaison, M-1
    PHMSA Audit Liaison, PH-4
                                                                                                                      15



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards between April 2012 and February 2014. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

We reviewed States certified under PHMSA’s Natural Gas Program, which
includes transmission 21 and distribution 22 systems, for calendar years 2010 to
2011. We randomly selected 5 of the 48 certified States (51 State agencies) to
review and visit—California, Oklahoma, Florida, Georgia, and Texas.

To evaluate the effectiveness of PHMSA’s State Pipeline Safety Program, we:

• Reviewed PHMSA’s guidance, policies, and procedures.

• Interviewed PHMSA management and program evaluators responsible for
  Program management and oversight at Headquarters and selected States.

• Shadowed PHMSA’s annual program evaluations at three selected States, and
  shadowed PHMSA’s triennial grant review of one selected State.

• Interviewed State program directors and inspectors.

• Reviewed documentation from PHMSA and each of the selected States for the
  annual program evaluation. 23 We selected the 2010 and 2011 program
  evaluations from each of the 5 randomly selected states we visited for a total of
  10 program evaluations. A program evaluation can have up to 115 questions
  and each question can have up to 5 program evaluation requirements. We
  selected a total of 400 program evaluation requirements (80 per State) that
  were non-technical and had a direct impact on safety.

• Reviewed documentation supporting a sample of expenses that California,
  Oklahoma, Georgia, and Texas 24 submitted to PHMSA for reimbursement. We
  stratified payment request cost items for the 4 states and randomly selected 19


21
   Transmission pipelines are large pipelines that operate under high pressure. They are typically used to transport gas
to a distribution center or to supply a large-volume customer. In San Bruno, a transmission pipeline between two
distribution systems ruptured.
22
   Distribution pipelines are small pipelines that operate under low pressure. They are typically used to transport natural
gas to individual households and users.
23
   Each State completed one program evaluation per year.
24
   Florida does not receive PHMSA State Pipeline Safety Program grant funding.


Exhibit A. Scope and Methodology
                                                                                                           16


       out of 143 cost items. 25 These cost items represented $7.6 million or 39 percent
       of $19.2 million in reimbursements PHMSA paid to these 4 states in
       2010/2011. From this sample, we randomly selected and reviewed 188 line
       items out of 1,664.

• Reviewed and analyzed staffing formula documentation that PHMSA used to
  assess State staffing levels.
• Interviewed NTSB and other stakeholders regarding the Program’s
  effectiveness.




25
     One cost item was selected twice due to our ‘with replacement’ sampling methodology reducing the number of
     unique cost items selected from 20 to 19.


Exhibit A. Scope and Methodology
                                                                      17



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
PHMSA
State Program Office
Inspector Training & Qualifications Office

State Agencies
California Public Utilities Commission
Florida Public Service Commission
Georgia Public Service Commission
Oklahoma Corporation Commission
Railroad Commission of Texas

National Transportation Safety Board
Office of Railroad, Pipeline, and Hazardous Materials Investigation
Office of Safety Recommendations & Advocacy

Stakeholders
National Association of Pipeline Safety Representatives
National Association of Regulatory Utility Commissioners
Pipeline Safety Trust




Exhibit B: Activities Visited or Contacted
                                                                                    18


APPENDIX




U.S. Department                     Administrator
                                                                1200 New Jersey Avenue, SE
of Transportation                                               Washington, DC 0590
Pipeline and Hazardous
Material Safety
Administration

                                  April 24, 2014

MEMORANDUM



TO:           Jeffry B. Guzzetti
              Assistant Inspector General for Aviation Audits

FROM:         Cynthia L. Quarterman

SUBJECT: Management Response to Office of Inspector General Draft Report
         on
         New Approaches Are Needed To Improve PHMSA’s State Pipeline
         Safety Program (Project No. 12A3008A000)

The Pipeline and Hazardous Materials Safety Administration’s Office of Pipeline
Safety’s mission is to protect people and the environment from the risks of
pipeline incidents. With over 500 Federal and State employees committed to
supporting that mission and improving pipeline safety, PHMSA establishes
national policy, sets and enforces standards, educates stakeholders, and conducts
research and development activities.

Since 1971 when a national uniform standard of pipeline safety regulations was
implemented, States have had the ability, through PHMSA, to regulate the safety
of intrastate pipelines and pass additional safety regulations more stringent than
the minimum Federal regulations. Before that federal program was created, many
states already performed those functions under state law. Through these federally
approved pipeline safety programs, most States have established more stringent
safety regulations. PHMSA assumes the oversight responsibility for the full cost
of pipeline safety programs if a State chooses not to participate. Currently, all


Appendix
                                                                                 19


States except Alaska and Hawaii, participate in PHMSA’s pipeline safety
program.

PHMSA Oversees and Supports State Pipeline Safety Programs

For over 40 years, PHMSA has worked diligently to foster a close working
relationship with State pipeline safety programs. PHMSA depends on the States
to manage their programs, including evaluating their inspectors’ ability to perform
standard inspections. PHMSA’s role is to oversee the individual State programs to
ensure their actions are in compliance with PHMSA’s certification requirements
and that appropriated funds are appropriately spent.

Current PHMSA staffing of State Evaluators have a total of 169 years of
cumulative pipeline safety knowledge, or 28 years on average of experience, with
pipeline safety issues. They use this knowledge and skill during State evaluations.

Our program oversight includes annual on-site Program Evaluations and triennial
Grant Reviews. PHMSA works with States to collect and analyze annual Progress
Reports, provide comprehensive program guidance, ensure compliance with and
answer questions, and help them improve their individual programs.


State Pipeline Safety Programs Accomplish Program Goals

State pipeline safety programs successfully accomplish the Department of
Transportation’s (DOT) public safety goals. Under PHMSA’s oversight, State
pipeline safety programs have reduced the rate of serious pipeline incidents for gas
distribution pipelines by approximately two-thirds over the last 30 years. In
addition, the mileage of gas distribution pipelines has increased by over 50
percent. In 1990, State pipeline safety programs broke through the six-sigma
threshold (1:1,000,000), the gold standard for acceptable risk for serious
distribution incidents, and have continued to reduce serious incidents even more
with an incident rate averaging half the six sigma threshold over the past 5 years.
The total number of serious incidents on distribution pipelines in calendar years
2012 and 2013 were 24 and 21, respectively, which were the lowest number of
serious incidents on record for the past 30 years. Since CY2010, in which there
were five serious incidents on intrastate transmission lines under State safety
authority, including the tragic incident in San Bruno, California, there have been
no other serious incidents to date on intrastate transmission pipelines.




Appendix
                                                                                20


PHMSA Strongly Supports the Education and Training of Pipeline Safety
Inspectors

PHMSA has developed 25 pipeline-specific training courses and 28 Web Based
Training (WBT) modules for Federal and State pipeline safety inspectors. There
is no charge associated with the training provided to States participating in the
pipeline safety program. PHMSA also mentors State pipeline safety inspectors by
allowing them to audit Federal pipeline safety inspections and support Federal
staff with integrity management inspections when resources allow.

In August of 2013, PHMSA opened a new training facility in Oklahoma City, OK,
increasing its capability and commitment to the education and training of the
pipeline safety inspector workforce. The new location provides offices and four
classrooms, along with supervisory control and data acquisition (SCADA),
Welding and Corrosion Labs, and fully integrated audiovisual systems throughout
the training areas. The PHMSA Training Center provides dedicated space for
demonstrating new technologies, methods, and procedures to Federal and State
inspectors.


Conclusion

The OIG’s Draft Report asserts that PHMSA’s State Evaluators missed a large
number of “non-compliances” (135 among 5 States) during their program
evaluation. While the areas identified by the OIG are a non-technical subset of the
entire question set, PHMSA needs specific information to assess the nature of its
findings. However, PHMSA requested but was never provided with information
regarding what the purported missed “non-compliances” were. Therefore,
PHMSA is unable to verify this finding or, more importantly, use that finding to
improve its training for program evaluators. Receiving the requested information
from the OIG will allow PHMSA an opportunity for training, program
improvement, and increased safety.

Recommendations and Responses

   Recommendation 1: Revise the staffing formula so that it accounts for risk
   and non-standard inspections, and periodically analyze State-provided
   inspection unit data to validate staffing formula results.




Appendix
                                                                                    21


  Response: Partially Concur. PHMSA has already taken action independent of
  this audit and recommendation. PHMSA uses its staffing formula to estimate
  the minimum staff a program should have based on the recommended number
  of inspection days required to be conducted in a given year. PHMSA does not
  use the staffing formula to prohibit or discourage a State from increasing its
  staff to meet its individual state inspection needs nor does it attempt to reduce
  the number of inspection staff in a State pipeline safety program. In fact,
  PHMSA encourages States to increase State pipeline safety program staffing
  by increasing available grant funding and suspending the maintenance of effort
  clause for the State Base Grant during difficult economic times. This approach
  has added approximately 40 State inspectors to pipeline safety programs during
  recent tough economic times.

  In 2010, PHMSA evaluated the merits of the existing staffing formula with a
  team of State pipeline safety program representatives. This team determined
  that the existing formula is appropriate for setting a baseline inspector corps
  and made recommendations for improving the formula including providing
  additional criteria concerning increasing staff levels. PHMSA continues to
  believe the recently revised staffing formula is appropriate.

  PHMSA recognizes that the number of inspection units and their size can
  affect the staffing formula results. For this reason, PHMSA annually reviews
  this program element with States through Question B8 of its Program
  Evaluation form and addresses concerns as they arise. For example, PHMSA
  addressed the concern regarding the size of inspection units in its letter to the
  California Public Utilities Commission for its CY2012 pipeline safety
  program.

  PHMSA’s “Guidelines for States Participating in the Pipeline Safety Program”
  lists 10 additional considerations for State staffing levels, including pipe age
  and material composition (such as cast iron), which may be unique to an
  individual State and support staffing over the base level (Section 4.2.1).
  Additionally, Section 4.2.2 of those guidelines allow States to propose an
  alternate staffing level based on supporting detailed information including
  aging infrastructure or the need for more non-standard inspections.

  PHMSA recognizes that program improvement is a continuous process and
  takes this responsibility seriously. In response to this recommendation,
  PHMSA agrees to review the considerations identified in the 2010 Staffing
  Task Group to improve PHMSA’s current State guidance. PHMSA will
  complete this review by December 31, 2014.

Appendix
                                                                                 22


  Recommendation 2: Develop and include in PHMSA’s State Program
  Guidelines:

     a. Minimum training standards for State inspector qualifications for
        leading inspections (i.e., classroom and/or on-the-job training).
     b. A system that tracks revisions to Federal inspection forms and actively
        notifies States when these new forms are available.
     c. Standards for time allowed between inspections for all inspection types.


  Response: Concur. a) PHMSA had not established minimum qualifications
  because we wanted to allow State program managers the flexibility to use their
  available resources, as appropriate and consistent with inspector skill levels.
  By December 31, 2014, PHMSA will review and update guidance to help State
  program managers determine the proper training level inspectors should have
  before they perform unassisted inspections.

  b) PHMSA already posts the most current inspection forms on its website and
  will now alert States when there are changes to the Federal inspection forms.
  On February 27, 2014, PHMSA sent an email to all States alerting them to the
  location of the most recent inspection forms and of PHMSA’s intentions to
  alert them to future changes. PHMSA will continue to alert states of future
  changes.

  c) PHMSA established a 5-year maximum interval between standard
  inspections in guidance to States for CY2014. PHMSA required public
  education effectiveness inspections to be completed by the end of CY2013 and
  distribution integrity management inspections to be completed by the end of
  CY2014. By December 31, 2014, PHMSA will establish maximum inspection
  intervals for other types of inspections.

  Recommendation 3: Develop and implement procedures to review the
  adequacy of inspection procedures as part of the annual program evaluation.

  Response: Partially Concur. PHMSA provides States with guidelines for
  administering their pipeline safety programs. Under the guidelines, each
  pipeline safety program requires States to establish and follow written
  inspection procedures that provide for methodical, systematic, comprehensive,
  and consistent inspections.

  PHMSA annually evaluates each State’s adherence to its inspection
  procedures. As shown in the statistics section of the “State Pipeline Safety


Appendix
                                                                               23


  Programs are Accomplishing Program Goals.” State pipeline safety programs
  have been very successful in meeting safety goals. Nevertheless, PHMSA
  does recognize that program improvement is a continuous process. By
  December 31, 2014, PHMSA will provide States with standardized inspection
  forms and will enhance our existing general inspection guidance.

  Recommendation 4: Provide States with comprehensive guidance to ensure
  States effectively implement PHMSA’s risk analysis methods for scheduling
  inspections.

  Response: Partially Concur. Prior to this audit, PHMSA was working with
  States on this matter in transitioning to an advanced risk-informed
  methodology focused on mitigating overall risk to people and the environment.
  PHMSA has supported risk inspection prioritization for several years and
  believes prioritizing inspection units according to risk is especially important
  when inspection resources are limited. PHMSA has also established key
  factors for States to consider when risk-ranking inspection units. Additionally,
  PHMSA developed a Web Based Training titled, “Introduction to Risk
  Assessment Methods,” which provides a basis and background for assessing
  risk and is available to all State program managers and inspectors.

  Moving forward, PHMSA is committed to reviewing the current key elements
  of the existing guidance to assess if any modifications are needed. Further,
  PHMSA will revise the risk-ranking elements and provide guidance to the
  States on the appropriate methodologies to be used in line with PHMSA’s
  methodologies for inspection unit risk-ranking. PHMSA will have this
  additional guidance in place by December 31, 2014.

  Recommendation 5: Document the procedures for conducting triennial grant
  reviews to ensure consistency of oversight.

  Response: Concur. PHMSA appreciates the OIG’s recognition of how
  thorough PHMSA’s triennial grant reviews and efforts are to assure the
  appropriate expenditure of Federal grant funds. PHMSA proposes closure of
  this recommendation based on the following actions already taken:



     • PHMSA’s evaluators involved with grant monitoring have completed a
       Grant Certification program by Management Concepts and take
       refresher courses each year.



Appendix
                                                                                24


     • PHMSA has enhanced existing forms, guidance, and training for
       conducting triennial grant reviews to include procedures being
       implemented for CY2014 Grant Reviews.

     • On February 13, 2014, PHMSA held a webcast with all its State
       Evaluators involved in grant management. The purpose of this webcast
       was to review PHMSA’s procedures for conducting grant monitoring
       and to address grant review form updates for monitoring One Call, State
       Damage Prevention, and MOE Suspension Grant Fund expenditures.


  Recommendation 6: Develop a training program that ensures PHMSA
  evaluators can successfully conduct the following program evaluation
  procedures:

  a. Determine and verify whether States have complied with all Program
     Evaluation requirements according to its procedures.
  b. Accurately notify States of non-compliance with Program Evaluation
     requirements to ensure States take correct action to achieve compliance.


  Response: Partially Concur. PHMSA proposes closure of this
  recommendation based on the following actions:

     • PHMSA has taken action to develop a more robust annual review and
       training of State guidance materials for conducting Program
       Evaluations. In PHMSA’s annual meeting with State Evaluators from
       November 5-7, 2013, PHMSA went over each of the Program
       Evaluation questions and the associated guidance with each State
       Evaluator to discuss what each State Evaluator reviews and considers in
       determining if there are areas needing improvement and if grant
       allocation points should be deducted. PHMSA will continue to conduct
       this annual training to enhance consistency with Program Evaluations.

     • PHMSA periodically rotates the State Evaluators among the States so a
       different perspective is brought to the State Evaluation over time to
       identify inconsistencies with State Evaluator perception, interpretation,
       or time given to review a particular issue. PHMSA is implementing a
       new policy for the 2013 grant cycle to not reduce a State’s funding
       unless the State loses points for the same question it lost points for in


Appendix
                                                                             25


        the previous evaluation, which allows States to make program changes
        before PHMSA reduces their grant funding.

     • PHMSA requested six additional positions in the FY2015 budget
       request to help support more in-depth evaluations of State pipeline
       safety programs. This requests, if granted, will effectively double
       PHMSA’s capacity for conducting thorough and effective program
       evaluations.

     • PHMSA, by formal correspondence, continues to communicate annually
       with State senior officials regarding pipeline safety issues identified
       from the annual Program Evaluations. PHMSA’s State Evaluators
       continue to offer to brief State pipeline safety senior officials on the
       Program Evaluation results at the conclusion of the evaluations.


  Recommendation 7: Develop and implement a plan for auditing States’ use
  of suspension funds, and work with State program managers to identify current
  suspension fund administration challenges requiring additional guidance.

  Response: Concur. An audit plan has been developed for auditing States’ use
  of Suspension funds. By December 31, 2014, PHMSA will meet with State
  program managers to identify administrative challenges and develop additional
  guidance with regard to Suspension funds. This guidance will be included in
  the 2015 “Guidance to States Participating in the Pipeline Safety Program.”




Appendix
